No. ________________

In The Supreme Court of the United States
DEREK LEVERT HALL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Derek Levert Hall respectfully moves for leave to file the attached
petition for writ of certiorari without prepayment of costs and to proceed in forma
pauperis in accordance with Supreme Court Rule 39 and 18 U.S.C. § 3006A(d)(7).
A United States Magistrate Judge found Mr. Hall financially unable to obtain
counsel, and the district court appointed the Federal Public Defender for the
Northern District of Alabama to represent Mr. Hall under to 18 U.S.C. § 3006A.
In reliance upon Sup. Ct. R. 39.1 and 18 U.S.C. § 3006A(d)(7), Mr. Hall has
not attached the affidavit that would otherwise be required by 28 U.S.C. § 1915(a)
and the rules of this Court.
Respectfully submitted this 12th day of October, 2021.
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
DEANNA LEE OSWALD
Assistant Federal Public Defender
TOBIE J. SMITH
Appellate Attorney
Federal Public Defender’s Office
Northern District of Alabama
505 20th Street North, Suite 1425
Birmingham, Alabama 35203
(205) 208-7170
Tobie_Smith@fd.org

